Case No.
IN THE

Supreme Court of the United States
BRETT EMMETT LLOYD,
Petitioner,
vs.
JOHN GERHARD; JEFFREY WARNER;
ANNALISA BALL; CITY OF BEAVERTON,
Respondents,

MOTION TO FILE PETITION
IN NONCOMPLIANCE
COMES NOW, Brett E. Lloyd, Petitioner in the
above referenced case, respectfully requesting this Court's
leave to file that attached PETITION FOR WRIT OF
CERTIORARI in noncompliance with Rule 33.1, as
permitted by Rule 39.3. Petitioner is a pro se litigant,
currently housed at the Eastern Oregon Correctional
Institution, with limited access to resources.. Petitioner has
made every effort to comply. The Appendices contains
documents issued and filed with a court, or those
previously submitted as evidence and part of the record.
EXECUTED on November 18, 2020

Brett Emmett Lloyd

RECEIVED
NOV 2 5 2020
supreme"mirnrf.y

